                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General

                                                            FEB 26 2013

MEMORANDUM


TO:           IBB - Richard M. Lobo

FROM:         OIG - Harold M.   Geii;5v'r
SUBJECT:      Compliance Followup Review of the International Broadcasting Bureau Germany
              Transmitting Station, ISP-IB/C-13-20

Executive Summary

        The Office oflnspector General (OIG) compliance followup review (CFR) of the
International Broadcasting Bureau (IBB) Germany Transmitting Station found that the
transmitting station had complied overall with the recommendations from the September 2011
inspection report (ISP-IB-11-66). The OIG team reissued two of the recommendations.

Purpose, Scope, and Methodology

        In conducting the CFR, the inspectors verified whether agreed-upon corrective actions for
recommendations issued in the 2011 report were fully and properly implemented. The inspectors
reviewed the previous inspection report and reported corrective actions, conducted interviews by
telephone and email, reviewed and collected documentation to substantiate reported corrective
actions, addressed new, significant deficiencies or vulnerabilities during the course of the CFR,
and where appropriate, issued new recommendations, and discussed the substance of the report
with the head of the inspected office. The CFR took place in Washington, DC, between
September 4 and 25, 2012, and in Germany between October 9 and 16, 2012.

Background

        Little has changed since the OIG inspection team visited the IBB Germany Transmitting
Station in 2011. One Foreign Service officer serves as the station manager, and there are 19
locally employed staff members at two functioning sites, Lampertheim and Bib1is, both located
in the Consulate General Frankfurt consular district. The IBB Germany Transmitting Station sold
the property at Erching, a third nonfunctioning site.

Evaluation of Compliance

Management

       The 2011 OIG report reconunended that the IBB Germany Transmitting Station
implement a procurement process that adequately separates requestor and procurement duties to
meet internal control requirements. The IBB Germany Transmitting Station hired an
                                                1
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

administrative assistant and revised procurement procedures so that adequate internal controls
over the procurement process were in place. A revised management instruction assigns
responsibilities, delegations, and accountability for the ordering, receiving, and inventory
functions. This recommendation is closed.

        The 2011 OIG also report recommended that Embassy Berlin send a demarche to the
Germany Ministry of Foreign Affairs to request recognition of duty and tax exemptions granted
by previous agreements and seek clarification of the procedure for successful submission of
requests for refund of value-added taxes paid. The embassy sent a note verbale (diplomatic note)
in July 2011. In April 2012, the Ministry of Foreign Affairs notified the embassy that it was
working with the Finance Ministry and the Department of Protocol on "this legally complicated
issue." The Finance Ministry said it could not issue the value-added tax exemption; however, an
exemption may be requested and granted from the European Union in Brussels. The embassy
sent the demarche as requested. This recommendation is closed.

Information Technology

       During the 2011 inspection, two recommendations were issued regarding the information
technology operations of IBB Germany Transmitting Station. Both recommendations remain
open and are reissued as a result of this CFR.

        The IBB did not implement a standard operating procedure detailing how account
administration and support will be handled for transmitting stations. IBB management reports
that administrative network management will be centralized in Washington, DC, eliminating the
need for it to be handled by all transmitting stations. The centralization of administrative network
management is in response to the 2011 OIG inspection report that noted there were no standard
operating procedures for administering, configuring, and maintaining the administrative network
for the IBB Germany Transmitting Station. (b) (5)



                              A newsletter has been sent to staff discussing account
management; however, it did not provide detailed procedures for information management staff
to follow. Without a defined standard operating procedure, potential information security
vulnerabilities could arise.

Recommendation CFR 1: The International Broadcasting Bureau should implement a standard
operating procedure for administering, configuring, and maintaining the International
Broadcasting Bureau Germany Transmitting Station's administrative network. (Action: IBB)

         OIG made an additional recommendation in the 2011 inspection report, requesting the
development of an information technology training plan for locally employed systems staff. The
report noted that locally employed staff had not received formal training in areas of information
security and network administration. In its compliance response, IBB reported that the Office of
Information Technology plans to visit the IBB Germany Transmitting Station in FY 2013. An
information technology training plan for the locally employed staff will be developed during the
visit. In the interim, IBB management has provided staff with information on industry-
recommended training for desktop and server administration. Without adequate training, staff
                                                 2
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

may be unprepared to fulfill network administration support requirements and could
unintentionally compromise the confidentiality, integrity, and availability of the network.

Recommendation CFR 2: The International Broadcasting Bureau should implement an
information teclll1ology training plan for locally employed systems staff at the International
Broadcasting Bureau Germany Transmitting Station. (Action: IBB)

Security Annex

        The OIG inspection team examined the compliance for Recommendations 34 and 35
from the 2011 security annex report and found that the reported actions were sufficient to close
these two recommendations for acceptable compliance.

          I would be happy to meet with you to discuss this matter further, or your staff may
contact Robert Peterson, Assistant Inspector General for Inspections, by email at
(b)(2)(b)(6)@state.gov or by telephone on (b)(2)(b)(6)



cc:    Kelu Chao, Director, International Broadcasting Bureau
       Barbara Tripp, Management Analyst, International Broadcasting Bureau




                                                 3
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

List of Compliance Followup Review Recommendations
Recommendation CFR 1: The International Broadcasting Bureau should implement a standard
operating procedure for administering, configuring, and maintaining the International
Broadcasting Bureau Germany Transmitting Station's administrative network. (Action: !BB)

Recommendation CFR 2: The International Broadcasting Bureau should implement an
information technology training plan for locally employed systems staff at the International
Broadcasting Bureau Germany Transmitting Station. (Action: IBB)




                                                4
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED

Abbreviations
BBG               Broadcasting Board of Governors

CFR               Compliance followup review

IBB               International Broadcasting Bureau

OIG               Office of Inspector General




                                   5
                SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Appendix: Status of 2011 Inspection Formal
Recommendations
Recommendation 1: The International Broadcasting Bureau Germany Transmitting Station
should implement a procurement process that adequately separates requestor and procurement
duties to meet internal controls requirements. (Action: !BB Germany Transmitting Station)

       Pre-CFR Status: BBG concurred with the OIG recommendation, and the !BB Germany
       Transmitting Station manager continued to work with Embassy Berlin and Consulate
       General Frankfurt to create a new position and hire a new administrative assistant by the
       end of2011. The !BB Germany Transmitting Station manager also revised Station
       Management Instruction 15 to address changes in the procurement process related to the
       duties of the new administrative assistant, providing for separation of requestor and
       procurement duties.

       CFR Findings: The recommended action has been taken. The recommendation is closed.

Recommendation 2: Embassy Berlin, in coordination with the Office of Foreign Missions, the
International Broadcasting Bureau, and the International Broadcasting Bureau Germany
Transmitting Station should demarche the Foreign Ministry and Ministry of Finance to get
recognition of duty and tax exemptions already granted by previous agreements and seek
clarification of the procedure for successful submission of requests for the refund of value-added
taxes paid. (Action: Embassy Berlin, in coordination with OFM, !BB, and !BB Germany
Transmitting Station)

       Pre-CFR Status: Closed.

       CFR Findings: The embassy sent a demarche (diplomatic note). The recommended
       action has been taken. The embassy followed up and received a response that the German
       Ministry of Foreign Affairs forwarded the request to the Ministry of Finance, which
       responded that it could not issue a value-added tax exemption and that such a request
       must be made to the European Union in Brussels. This recommendation remains closed.

Recommendation 3: The International Broadcasting Bureau Germany Transmitting Station
should develop and implement standard operating procedures for administering, configuring, and
maintaining the station's administrative network. (Action: !BB Germany Transmitting Station)

       Pre-CFR Status: Closed.

       CFR Findings: Although the !BB Office of Information Technology pledged to visit the
       !BB Germany Transmitting Station to implement standard operating procedures for
       administering, configuring, and maintaining the station's administrative network, BBG
       has not supplied the OIG inspection team with the documents outlining the standard
       operating procedures. Neither has the Office of Information Technology made the visit to
       !BB Germany Transmitting Station to implement the procedures. This recommendation
       has been reissued as Recommendation CFR 1.

                                                6
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Recommendation 4: The International Broadcasting Bureau Germany Transmitting Station
should develop and implement an information technology training plan for locally employed
systems staff. (Action: IBB Germany Transmitting Station)

       Pre-CFR Status: The!BB Office of Technology, Services, and Irmovation, Office of
       Information Technology was plarming a visit to the !BB Germany Transmitting Station in
       FY 2012 to provide transmitting station staff with detailed information on the
       configuration of the planned new services and workstations. However, the response from
       BBG did not adequately address the situation found during the inspection and described
       in the inspection report, which focused on the absence of formal training for locally
       employed staff and the lack of standard operating procedures and guidelines. BBG has
       not confirmed that this training had been instituted.

       CFR Findings: BBG Washington, DC, reported that it is preparing the documents, but
       inspectors have not received completed documents. The !BB Office oflnformation
       Technology site visit is still pending and training has not been instituted. This
       recommendation is reissued as Recommendation CFR 2.




                                              7
                         SENSITIVE BUT UNCLASSIFIED
